U.S. Department of the Interior
Office of Inspector General
               1




          SURVEY REPORT


RECOVERY OF OVERHEAD COSTS BY THE
   BUREAU OF LAND MANAGEMENT

             REPORT NO. 99-I-393
                MARCH 1999
                                                                       W-IN-BLM-002-98-D

             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL,
                                    Washington, D.C. 20240


                                                                           MAR 3 1 1999

                                SURVEY REPORT
Memorandum

To:      Director, Bureau of Land Management
                                 - &        Q,,//:
From:    Robert J. Williams -fl%
         Assistant Inspector General for Budits

Subject: Survey Report on Recovery of Overhead Costs by the Bureau of Land
         Management (No. 99-I-393)

                                 INTRODUCTION
This report presents the results of our review of the Bureau of Land Management’s recovery
of overhead costs through its indirect cost rate. The objective of our audit was to determine
whether the Bureau accurately computed and properly applied the indirect cost ram.

BACKGROUND
The Bureau of Land Management, as custodian of 264 million acres of public land and an
additional 300 million acres of subsurface mineral resources, conducts programs and
activities that provide benefits to organizations and individuals beyond the benefits received
by the general public. For example, when the Bureau processes a mineral patent application,
the applicant receives a benefit not received by the general public. Federal law and policy
require the Bureau to recover the full costs, including overhead costs, for conducting these
programs and activities. In fiscal year 1997, the Bureau recovered overhead costs of
$2.5 million for services provided to organizations and individuals. The amount collected
generally represented 18 percent of the costs incurred for those activities for which the
Bureau determined that it would impose charges.

In fiscal year 1997, the Bureau reviewed its procedures for assessing and collecting costs
to determine whether the procedures adequately provided for full cost recovery. Specifically,
the Bureau formed a Revenue Enhancement Team, which studied cost recovery. The results
of the study were presented in Bureau Instruction Memorandum No. 98-97, dated April 17,
 1998, which required each State Director to develop cost recovery plans for their respective
programs and projects.’ Also during our survey, the Bureau was reviewing the indirect cost
rate charged to outside organizations and individuals. In conjunction with the Bureau’s
review, the Office ofthe Solicitor issued an opinion dated December 5, 1996, on the Bureau’s
efforts to recover the costs from outside individuals and organizations for processing minerals
documents, which stated that the Bureau has the authority to recover costs for those specific
activities for which costs had not been collected. According to the opinion, these activities
included conducting inspection and enforcement work, reviewing bonds for sufficiency, and
reviewing lessee qualifications for mineral leasing.

SCOPE OF SURVEY

We performed our survey from February through May 1998 at the Bureau’s National
Business Center in Denver, Colorado. To accomplish our objective, we reviewed the
methodology for determining the Bureau’s indirect cost rate, the support for the rate
calculation based on Bureau cost data for fiscal year 1997, and laws and regulations
concerning cost recovery. We also tested selected transactions to review the Bureau’s
application of the indirect cost rate. We conducted the survey in accordance with the
“Government Auditing Standards,” issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that were
considered necessary under the circumstances to accomplish the objective. We also reviewed
the Departmental Report on Accountability for fiscal year 1997, which includes information
required by the Federal Managers’ Financial Integrity Act of 1982, and the Bureau’s annual
assurance statement on management controls for fiscal year 1997 to determine whether any
reported weaknesses were within the objective and scope of our review. Neither the
Accountability Report nor the Bureau’s assurance statement reported control weaknesses in
the Bureau’s recovery of overhead costs.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
reports on the Bureau’s recovery of overhead costs through an indirect cost rate during the
past 5 years.

                                RESULTS OF SURVEY
The Bureau of Land Management did not accurately compute and properly apply the indirect
cost rate to recover the total reimbursable overhead costs of providing services to
organizations and individuals during fiscal year 1997. Office of Management and Budget
Circular A-25 (“User Charges”), the Departmental Manual (346 DM), and the Federal Land
Policy Management Act of 1976 require the Bureau to recover the overhead costs incurred
when performing work for others. However, the Bureau (1) based the indirect cost rate on
estimated costs and limited the rate to 18 percent and (2) used an unsupported rate (less than



‘The memorandum did not address the issues discussed in the Results of Survey section of this report.

                                                    2
18 percent) to assess overhead costs to two other bureaus and the road maintenance program.
As a result, the Bureau did not recover fiscal year 1997 costs of more than $386,000.

Circular A-25 states, “When a service . . provides special benefits to an identifiable recipient
beyond those that accrue to the general public, a charge will be imposed (to recover the fi~ll
cost to the Federal Government for providing the special benefit, or the market price).” In
addition, the Departmental Manual states, “Recovered costs will include both direct and
indirect costs of the performing bureau . . in furnishing the services.” Finally, the Federal
Land Policy and Management Act authorizes the Bureau to establish fees and charges based
on actual costs, excluding “management overhead.“’

The Bureau computed its indirect cost rate for fiscal year 1997 as follows:

                   Total Overhead Costs Less Management Overhead Costs
                                    Total Direct Costs


                         $171,548,015 less $45,584,476
                                                       = 18.55 percent
                                 $678,953,082

To determine management overhead costs, the Bureau had to estimate the costs based on
historical data. Prior to fiscal year 1995, the Bureau’s financial system identified management
overhead costs separately. However, since fiscal year 1995, the Bureau has had to estimate
the costs.

Although the Bureau calculates a rate each year, the Bureau’s budget office, in accordance
with established practice, limits the indirect cost rate to 18 percent. Bureau officials told us
that the indirect cost rate was limited to 18 percent to avoid complaints from client
organizations about increasing the rate and that the rate had been set at 18 percent for at least
15 years. As a result of limiting the fiscal year 1997 indirect cost rate to 18 percent, we
estimated that the Bureau did not recover overhead costs of $76,400. This amount was
derived by applying the .55 percent difference between the rates to the estimated total direct
costs of $13.9 million3 for reimbursable work. Since the actual amount of management
overhead costs was not available, we could not estimate the fi~ll cost impact of using
estimated management overhead costs.

The Bureau also used an unsupported indirect cost rate of 3.5 percent to charge two bureaus
for technical support services provided to those bureaus under a Bureau ofLand Management


‘Management overhead as interpreted by the Bureau includes overall program management and support that
would include providing overall program planning and direction, developing program policies and
procedures, and preparing and executing program budgets.

‘We estimated the direct costs of 613.9 million by dividing the recovered overhead costs of $2.5 million by
18 percent.


                                                    3
contract and 5 percent for road maintenance services. Specifically, for the contract services,
Bureau officials agreed to lower the 18 percent indirect cost rate to 3.5 percent to reflect the
minimum amount of administrative effort required by the contract. Although the Bureau
indicated that the rate should be lowered from the standard 18 percent, it could not provide
us with documentation as to how the 3.5 percent rate was determined, and the contract did
not specify a rate. Therefore, overhead costs of $113,755 (based on the difference between
the 3.5 percent rate and the standard 18 percent rate applied to direct costs of $784,5144)
were not recovered by the Bureau for fiscal year 1997.

For the road maintenance services, the Bureau included 5 percent in its calculation ofthe road
maintenance fee. According to Bureau officials, the Bureau used 5 percent as required by
then-existing legislation. However, the 5 percent requirement was repealed with enactment
of the Federal Land Policy Management Act of 1976. Therefore, overhead costs of $196,297
(based on the difference between the 5 percent rate and the standard 18 percent rate applied
to direct costs of $1,509,977) were not recovered by the Bureau for fiscal year 1997.

Recommendations

We recommend that the Director, Bureau of Land Management:

       1. Identify management overhead costs and use the resultant cost data in calculating
the Bureau’s indirect cost rate.

       2. Discontinue the practice of limiting the indirect cost rate to ensure that all
overhead costs are properly recovered.

Bureau of Land Management Response and Office of Inspector General
Reply
In the March 19, 1999, response (Appendix 2) to the draft report from the Acting Director,
Bureau of Land Management, the Bureau did not state specific concurrence or
nonconcurrence with the recommendations and also did not provide detailed information on
the actions taken or planned to implement the recommendations. Accordingly, we request
that the Bureau reconsider its responses to both recommendations, which are unresolved
(see Appendix 3).

Recommendation 1. Concurrence/nonconcurrence not stated.

         Bureau Response. The Bureau said that it had undertaken a “major exercise” during
the last half of fiscal year 1998 “to come up with a verifiable, justifiable overhead rate method
for each year.” The Bureau further stated, “A rate of 18.55 percent, as mentioned in your
[Ofice of Inspector General] report, was established for FY [fiscal year] 1999.” The Bureau
further stated that it would review and adjust the rate at the beginning of each fiscal year.


4We estimated direct costs of $784,514 by dividing the recovered overhead costs of $27,458 by 3.5 percent.

                                                    4
        Ofiice of Inspector General Reply. The Bureau did not include detailed information
on the actions it has taken “to come up with a verifiable, justifiable overhead rate method for
each year.” Our report stated that the Bureau had computed an indirect cost rate of
 18.55 percent for fiscal year 1997 but that it had to estimate its management overhead costs
based on historical data. Consequently, we could not determine whether the rate that the
Bureau established for 1999 was based on a new computation which included actual
management overhead costs as a result of its “major exercise” to develop a “verifiable,
justifiable overhead rate method” or on the rate it had calculated in 1997. Accordingly, we
request that the Bureau provide additional details on its method of identifying management
overhead costs and of including such costs in its annual rate calculation.

Recommendation 2. Concurrence/nonconcurrence not stated.

          Bureau Response. The Bureau stated that it will continue “in some circumstances”
to apply an indirect rate of less than the current year general indirect rates “where appropriate
justification can be demonstrated and documented.” The Bureau further stated that it “should
have some flexibility to limit or waive the overhead rate when a project has significant benefit”
to the Bureau that “outweighs the overhead assessment.”

        Offke of Inspector General Reply. We agree that some flexibility is needed to limit
or waive the rate when a lower rate can be justified and documented. However, we could not
determine from the response whether the annual indirect cost rate established by the Bureau
would be limited to 18 percent or what criteria would be used for limiting or waiving the rate.
Therefore, we request clarification regarding the Bureau’s policies and procedures for
establishing and applying indirect cost rates, including the circumstances under which the use
of an indirect rate that is lower than the current year’s rate would be appropriate.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by May 10, 1999. The response should provide the information
requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.




                                               5
                                             APPENDIX 1



            CLASSIFICATION OF MONETARY AMOUNTS


                                                 Potential
                                                 Additional
                Finding                          Revenues

Collection of Overhead Costs                     $386,452




                               .
                                                                                     APPENDIX2
                                                                                     Page 1 of 2
                   United States Department of the Interior
                                    BUREAU OF LAND MANAGEMENT
                                          Washington, D.C. 20240               In Reply Refer To:
                                           http://wwv.blm.gov                  1245 (880)




                                           MEMORANDUM

To:         Assistant Inspector General for Audits

Through: Sylvia V. Baca                      -rL I                309!3
          Acting Assistant Secre    ,   k@and Minerals Management
       %d                        &
From:     Acting Director, Bureau of Land Management

Subject:    Response to Draft Survey Report entitled “Recovery of Overhead Costs by the
            Bureau of Land Management,” dated January 1999 (W-IN-BLM-002-98-D)

Thank you for the opportunity to respond to the subject draft survey report on the recovery of
overhead costs by the Bureau of Land Management (BLM). We submit the following comments
regarding the two recommendations contained in your draft survey report:

Recommendation 1:

Identify management overhead costs and use the resultant cost data in calculating the Bureau’s
indirect cost rate.

Response: A major exercise was undertaken by the BLM during the last half of Fiscal Year
(FY) 1998 to come up with a verifiable, justifiable overhead rate method for each year. A rate of
18.55 percent, as mentioned in your report, was established for FY 1999. In addition, the rate will be
reviewed and adjusted at the beginning of each FY.

Recommendation 2:

Discontinue the practice of limiting the indirect cost rate to ensure that all overhead costs are
properly recovered.




                                                   7
                                                                              APPENDIX 2
                                                                              Page 2 of 2
                                                                                                2

Response: In some circumstances, the BLM will continue to apply an indirect rate of less than the
current year general indirect rates where appropriate justification can be demonstrated and
documented. For example, the BLM should have some flexibility to limit or waive the overhead rate
when a project has significant benefit to the BLM that outweighs the overhead assessment.

The BLM official who is responsible for implementing the recommendations is the Acting Assistant
Director for Business and Fiscal Resources.

Should you need additional information regarding the BLM’s response, please contact Brenda
Adams or Bob Blaicher, BLM Budget Group, at (202) 452-7700 or Gwen Midgette, BLM
Management Systems Group, at (202) 452-7739.




                                              8
                                                                  APPENDIX 3



      STATUS OF SURVEY REPORT RECOMMENDATIONS



Finding/Recommendation
       Reference                Status                Action Required

        1 and 2          Unresolved.         Provide a response to the
                                             recommendations. If concurrence
                                             is indicated, provide information
                                             on the actions taken or planned,
                                             including target dates and titles of
                                             officials responsible for
                                             implementation. If
                                             nonconcurrence is indicated,
                                             provide reasons for the
                                             nonconcurrence.




                                         9
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov


                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Off& of Inspector General                               Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-5081 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U. S . Department of the Interior                     (703) 235-9221
Offke of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Offke of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toll Free Numbers:
 l-800-424-5081           w
 TDD l-800-354-0996
                          i
                          5
FIX/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420       i
                          -



1849 C Street, N.W.
Mail stop 5341
Washington, D.C. 20240
